                                                      Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement—FAA’s                 Date:    June 21, 2005
           Controller-in-Charge Program
           Project No. 05A3007A000

  From:                                                        Reply to
           David A. Dobbs                                      Attn of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Ramesh K. Punwani
           Assistant Administrator
            for Financial Services/CFO

           The Office of Inspector General plans to conduct an audit of the Agency’s
           Controller-in-Charge (CIC) program. CICs are bargaining unit employees who
           act as temporary first-line supervisors when permanent supervisors are
           unavailable. FAA has used CICs for years to supplement its supervisory
           workforce, particularly at smaller facilities and during off-peak hours.

           In 1998, the Federal Aviation Administration (FAA) and the National Air
           Traffic Controllers Association entered into a 5-year collective bargaining
           agreement. Along with instituting a new pay system for controllers, the
           agreement included several work rule changes intended to reduce the overall
           cost of the agreement. One of these changes was to expand the CIC program
           in order to reduce the number of first-line supervisors.

           As a result, between fiscal year (FY) 1999 and FY 2003, FAA reduced the
           number of first-line supervisors by 390 positions or about 20 percent of the
           workforce. However, in response to concerns regarding the expanded CIC
           program, Congress included language in the Agency’s FY 2004 and FY 2005
           Appropriation Conference Report directing FAA to increase the number of
           supervisors at its air traffic facilities.
      The objectives of this audit are to determine whether FAA (1) has increased
      the number of first-line supervisors as required by Congress, and (2) made
      corresponding reductions to the CIC program. We plan to begin our audit the
      week of June 27, 2005 and will contact your audit liaison to schedule an
      entrance conference. If you have any questions or need additional information,
      please contact Dan Raville, Program Director, at (202) 366-1405 or Susan
      Bader, Project Manager, at (202) 366-1989.

                                          #

cc:      FAA Chief of Staff
         Anthony Williams, ABU-100
         Martin Gertel, M-1




                                          2
